   January 22, 2003




Information Technology


Development Testing of Prophet
Mission-Critical Software
(D-2003-051)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
DITSCAP               Department of Defense Information Technology Security
                         Certification and Accreditation Process
EMD                   Engineering and Manufacturing Development
MMI                   Man Machine Interface
PEO IEWS              Program Executive Office for Intelligence, Electronic Warfare
                         and Sensors
PSIU                  Processor System Interface Unit
         Office of the Inspector General of the Department of Defense
Report No. D-2003-051                                                   January 22, 2003
   (Project No. D2001PT-0104)



                         Development Testing of Prophet
                            Mission-Critical Software

                                Executive Summary

Who Should Read This Report and Why? This report concerns developmental
testing of DoD acquisition programs, which should be of particular interest to program
managers and acquisition professionals.

Background. This report is a review of the development testing of mission-critical
software for the U.S. Army Prophet Engineering and Manufacturing Development
(EMD) System and the Prophet Block I System. Prophet is a Division-Level ground
based electronic surveillance system, which provides protection in a direct support role
to the maneuver brigade; either stationary, or while on the move. The system monitors
and exploits signals of interest and determines the area of signal origin by providing
direction finding and line-of-bearing in the frequency range of 20 Megahertz to 2000
Megahertz. Prophet is operated in either the dismounted or mounted mode. In the
dismounted mode Prophet is man-packed with a portable antenna. In the mounted
mode Prophet is installed in an equipment enclosure carried on a High Mobility
Multi-Purpose Wheeled Vehicle with the antennas attached to a retractable mast.

Prophet EMD was developed to validate the operational performance of the system
prior to a decision for full rate production and deployment. Prophet EMD
developmental testing was completed in September 2000 and in general met the test
criteria. Prophet Block I is the full rate production system and has identical electronics
to Prophet EMD but also includes the Man Machine Interface. Prophet Block I First
Article Performance testing was from February 2002 to May 2002 and as a result some
errors were found and are being corrected. After First Article Performance Testing,
three Prophet Block I systems are to be refurbished and sent to Titan System
Corporation, Melbourne, Florida, for final sell off and acceptance. The first
production contract was awarded to Titan Systems Corporation in June 2001. The
contract obligates $7.7 million for non-recurring engineering work and six pre-
production systems. Additionally, the program office plans to procure an additional
83 systems at a recurring cost of approximately $300,000 per system.

Results. The development testing of mission-critical software for Prophet EMD and
Prophet Block I was generally adequate except for the following issues.
Prophet Block I with the Man Machine Interface will be fielded without ensuring that
the system meets operational needs and that it retains its effectiveness and suitability for
the typical user in an operational environment. An operational test assessment of the
system was required before fielding. For details of the recommendation see finding A
of this report.

The system security certification of the Prophet EMD was incorrectly designated at
level 1 instead of the higher level 2. Independent security certification analysis, testing,
and evaluation were not planned. Prophet will be fielded without knowing the extent to
which the systems meet information assurance requirements. For details of the
recommendation see finding B of this report.

Management Comments and Evaluation Response. The Army Program Executive
Officer for Intelligence, Electronic Warfare and Sensors (PEO IEWS) agreed that an
operational test assessment was required for Prophet Block I with Man Machine
Interface (MMI) and that it was scheduled for October 2002 but disagreed that it was
not planned. The PEO IEWS also agreed that both Prophet Engineering Manufacturing
and Development (EMD) and Prophet Block I should be designated at certification
Level 2, and disagreed that Prophet Block I certification level had not been designated.

Although Army PEO IEWS only partially concurred with the recommendations the
comments were responsive. We request that PEO IEWS provide the test report
documenting the results of the operational test assessment and a copy of an updated
System Security Authorization Agreement for Prophet Block I documenting the
certification level of Prophet Block I and Prophet EMD as well as the security
certification analysis and tests performed. We request that the documents be provided
by March 21, 2003.




                                             ii
Table of Contents

Executive Summary                                                  i

Background                                                        1

Objectives                                                        3

Findings
     A. Operational Test Assessment of Prophet Block I with the
           Man Machine Interface                                   4
     B. Certification Level 2 for Prophet Systems                  8


Appendixes
     A. Scope and Methodology                                     14
          Management Control Program Review                       14
          Prior Coverage                                          16
     B. Definitions of Technical Terms                            17
     C. Report Distribution                                       18

Management Comments
     Army Program Executive Office for Intelligence, Electronic
       Warfare and Sensors Comments                               21
Background
    Army Regulation 73-1, “Test and Evaluation Policy,” February 27, 1995, and DoD
    Regulation 5000.2-R, “Mandatory Procedures for Major Defense Acquisition
    Programs (MDAPS) and Major Automated Information System (MAIS) Acquisition
    Programs,” April 5, 2002, govern the Prophet program development testing policy.
    Army Regulation 73-1 describes development testing such as engineering-type tests
    used to verify that design risks are minimized, substantiate technical performance,
    and certify system readiness for operational test and evaluation. DoD 5000.2-R,
    states that development test and evaluation shall: 1) Identify the technological
    capabilities and limitations; 2) Identify and describe design technical risks; 3) Stress
    the system under test; 4) Address the potential of satisfying Operational Test
    and Evaluation requirements; 5) Analyze the capabilities and limitations of
    alternatives; 6) Assess progress toward meeting Key Performance Parameters and
    other Operational Requirements Document requirements; 7) Assess technical
    progress and maturity against critical technical parameters; 8) Provide data and
    analytic support to the decision process; 9) In the case of Information Technology
    systems, support the information systems security certification process; and, 10)
    Prior to full rate production, demonstrate the maturity of the production process.

    Prophet is a Division-Level ground based electronic surveillance system, which
    provides protection in a direct support role to the maneuver brigade; either
    stationary, or while on the move. The system monitors and exploits signals of
    interest and determines the area of signal origin by providing direction finding and
    line-of-bearing. Prophet is designed to detect line-of-sight radio signals in the
    frequency range of 20 Megahertz to 2000 Megahertz, which is in the High
    Frequency, Very High Frequency and Ultra High Frequency bands. Prophet is
    operated in either the dismounted or mounted mode. In the dismounted mode
    Prophet is man-packed with a portable antenna. In the mounted mode Prophet is
    installed in an equipment enclosure carried on a High Mobility Multi-Purpose
    Wheeled Vehicle with the antennas attached to a retractable mast.

    The program office has performed testing on two systems, Prophet Engineering and
    Manufacturing Development (EMD) and Prophet Block I. Prophet EMD and
    Prophet Block I have identical electronics with the exception that Prophet EMD does
    not include a subsystem called the Man Machine Interface (MMI). Prophet EMD
    was developed and tested to validate system performance. The results from those
    tests were used in the decision to proceed with full rate production and deployment
    of Prophet Block I. During the evaluation we selected three subsystems in Prophet
    Block I that contain mission-critical software. They are the MD-405A
    Receiver/Processor, the Processor System Interface Unit (PSIU), and the MMI.

    During direction finding operation the MD-405A Receiver/Processor records and
    reports a line-of-bearing for each received signal or frequency at the end of the
    selected integration period. The MD-405A Receiver/Processor is operated either by
    the front panel or through a remote host connected to the serial interface port. The
    unit has the capability to scan up to 400 normal channels and 20 priority channels.
    With the Prophet antennas, the unit is capable of performing direction finding on


                                            1
line-of-sight radio frequency emitters in the range of 20 Megahertz to 2000
Megahertz. The MD-405A Receiver/Processor is already in use as part of the
Special-Operations Command AN/PRD-13(V)2, a man-packed radio frequency
direction finding system. All software in the MD-405A Receiver/Processor is
controlled by Titan Signal Products Division’s configuration management process.
The MD-405A Receiver/Processor has approximately 73,000 lines of Assembly
source code of which 450 additional lines were added for the Prophet mission.

PSIU is a message exchanger and process monitor. The PSIU receives, transmits
and monitors serial data streams between subsystems. The PSIU has approximately
13,000 lines of Assembly source code of which 9,500 lines were reused from
software in the MD-405A Receiver/Processor.

MMI is a laptop computer remotely interfaced to the MD-405A Receiver/Processor
through the PSIU. The MMI provides a central control center for system and
receiver, a signal map display, a signal parameter list display, and tools to store, sort
and create signal parameter and voice traffic files. MMI application code is a
combination of commercial software, and custom developed software written in
C++. The MMI has over 200,000 lines of C++ source code of which 110,000
lines were reused, 40,000 lines were modified and 50,000 lines were developed.

Software development testing for Prophet EMD was done at the unit and system
level. Unit level testing focused on the correct execution of software as determined
by correct data flow and hardware control operations. System level testing was done
to measure the technical performance of Prophet EMD in the mounted and
dismounted modes. In general, software development testing of Prophet EMD at
both the unit level and system level met the test criteria. During development
testing, two software errors were found. One error resulted in a change of software
in the PSIU and the other error required software changes in the Tactical Navigation
System. Both errors were corrected and retested.

Since Prophet EMD and Prophet Block I are almost identical, additional
development testing on the full rate production system was not performed. To
validate whether Prophet Block I meets the contractual performance requirements a
First Article Performance test is being conducted. First Article Performance testing
includes unit and system level testing. Unit level testing consists of tracing the
execution of the MMI controller, application program interface and driver level
software; reviewing the data messages being passed between the MMI, the
MD-405A Receiver/Processor and the PSIU; and validating the operations of the
MD-405A Receiver/Processor and MMI. After completion of unit level testing,
Prophet Block I will undergo system level technical and environmental verification
tests. According to the program office, Prophet Block I First Article Performance
testing was completed in May 2002 and as a result some errors were found and are
being corrected.

The first production contract was awarded to Titan Systems Corporation in
June 2001. The contract obligates $7.7 million for non-recurring engineering work
and six pre-production systems. Additionally, the program office plans to procure
an additional 83 systems at a recurring cost of approximately $300,000 per system.


                                        2
Objectives
     Our objective was to evaluate development testing of mission-critical software for
     Prophet EMD and Prophet Block I. Specifically, we evaluated the completeness
     and adequacy of the development testing of mission-critical software in the
     MD-405A Receiver/Processor, the PSIU, and the MMI in the areas of planning,
     execution, and reporting. We also evaluated the adequacy of responses to test
     results of Prophet EMD and Prophet Block I, as well as how testing deficiencies
     affected the program.




                                          3
            A. Operational Test Assessment of
               Prophet Block I with the Man
               Machine Interface
            Prophet Block I with the MMI will not have an operational test
            assessment or a follow-on operational test performed prior to fielding.
            Initial operational testing of Prophet EMD did not include the MMI.
            The program office has not planned any additional operational tests prior
            to fielding because key criteria were met. As a result, Prophet Block I
            with MMI will be fielded without ensuring that the system meets
            operational needs and that it retains its effectiveness and suitability for
            the typical user in an operational environment.

Requirements for Operational Test Assessment
     Prophet acquisition management and strategy are governed by Army acquisition
     policy contained in Army Regulation 70-1, “Army Acquisition Policy,”
     December 15, 1997. Army Regulation 70-1 follows the guidance and
     procedures contained in DoD Directive 5000.1, “The Defense Acquisition
     System,” October 23, 2000, and DoD Regulation 5000.2-R, “Mandatory
     Procedures for Major Defense Acquisition Programs (MDAPS) and Major
     Automated Information System (MAIS) Acquisition Programs,” April 5, 2002.
     DoD 5000.2-R requires an operational test assessment when there are
     “hardware and software alterations that materially change system performance
     (operational effectiveness and suitability), which includes system upgrades and
     changes to correct deficiencies identified during test and evaluation.”

     Prophet test and evaluation is also governed by the requirements in Army
     Regulation 73-1, “Test and Evaluation Policy,” February 27, 1995. Army
     Regulation 73-1 requires follow-on operational tests to “refine the estimates
     made during initial operational testing, provide data to evaluate changes, verify
     that deficiencies in materiel, training, or concepts have been corrected, and
     provide data to ensure that the system continues to meet operational needs and
     that it retains its effectiveness in a new environment or against a new threat.”

Initial Operational Testing of Prophet Engineering and
  Manufacturing Development without Man Machine
  Interface
     An operational test requires testing in realistic operational environments with
     users who represent those expected to operate and maintain the system when it
     is fielded or deployed. Initial operational testing was done with Prophet EMD
     in two phases. The first phase was used to measure system effectiveness,
     suitability and limited survivability when employed by a unit in an operational
     matching environment. Phase 1 testing also included an assessment used to
     validate the mechanics of the overall information processing architecture in the


                                         4
     areas of tasking, reporting and collection management. Phase 2 was a field test
     exercise in conjunction with a planned brigade-level exercise. The objective of
     Phase 2 was to collect data on operational effectiveness and suitability. Data
     collected from those tests determined the system operational effectiveness,
     suitability, and survivability and were used as input to a Milestone III full rate
     production and fielding decision. But those tests were only performed on
     Prophet EMD and did not include the MMI.

Prophet Block I First Article Performance Testing with the
  Man Machine Interface
     Prophet Block I First Article Performance testing with the MMI is being
     performed at the contractor facility and at selected subcontracted laboratories
     and test ranges with the participation of a government or quality assurance
     witness. According to the program office, First Article Performance testing was
     completed in May 2002 and as a result some errors were found and are being
     corrected. During those tests, Prophet Block I had system performance and
     environmental verification tests using manual and automated methods. System
     performance testing includes demonstrating MMI mapping, display and control
     functions, signal monitoring, signal detection and direction finding accuracy.
     Environmental verification testing includes demonstrating reliability,
     maintainability and survivability. Manual testing was done using standard test
     equipment. Automated testing was conducted for the direction finding tests.
     After First Article Performance testing, three systems are to be refurbished and
     sent to Titan System Corporation, Melbourne, Florida, for final sell off and
     acceptance. First Article Performance testing of Prophet Block I with the MMI
     did not include an operational test with the typical user in an operational
     environment.

Operational Testing of the Man Machine Interface
     Prophet Block I and Prophet EMD system electronics are the same with the
     exception that Prophet Block I also includes MMI. The MMI provides primary
     control and display of system and receiver. Additionally, MMI provides the
     operator with a map and list display as well as tools to analyze, sort, and record
     data. If the MMI is unavailable, the system can be operated using manual
     controls. Because Prophet EMD initial operational tests met the key
     performance parameter criteria, the program office decided not to perform any
     additional operational test assessments or follow-on operational tests prior to
     fielding of Prophet Block I.

     The MMI is a laptop computer running the Microsoft Windows NT 4.0
     operating system and contains over 200,000 lines of source code developed for
     electronic surveillance control. The electronic surveillance control software
     consists of three modules that are used for control interface, application program
     interface, and receiver driver interface. The MMI also contains a set of
     commercial-off-the-shelf software modules used for mapping, data tabling,
     digital reporting, databasing, and support. In comparison with the other


                                          5
       subsystems in Prophet Block I, MMI has the largest collection of commercial-
       off-the-shelf and custom developed software. When MMI was added to
       Prophet, the PSIU software was modified to distribute data to and from MMI
       and other subsystems.

       Prophet Block I with MMI does improve system operational performance and
       effectiveness. MMI allows easier control of the MD-405A Receiver/Processor
       and system, has better displays and analysis tools for examining signals of
       interest, and has the capability to store, sort, and transfer signal data. In fact
       the Prophet system manager recognizes the operational benefits of having MMI
       because planned product improvements include the requirement for Prophet
       Block III to have MMI for intelligence digital reporting and databasing. Even
       though Prophet can perform its mission without MMI, the addition of MMI
       improves system performance and effectiveness. If an operational test
       assessment or a follow-on operational test is not performed with MMI, possible
       operational deficiencies or unsuitable features may not be detected and
       corrected.

Summary
The Product Manager, Prophet has not planned for Prophet Block I with MMI to have
an operational test assessment or a follow-on operational test performed prior to
fielding. Even though Prophet can perform its mission without MMI, an operational
test assessment should be performed because with MMI, the system performance and
effectiveness are changed. Specifically, MMI allows easier control of the MD-405A
Receiver/Processor and system; has better displays and analysis tools for examining
signals of interest; and has the capability to store, sort, and transfer signal parameters.
As a result, without an operational test assessment or follow-on operational test of
Prophet Block I, no operational data will validate the performance, effectiveness, and
suitability of MMI for the typical user in an operational environment.

Recommendations, Management Comments and Evaluation
 Response
       A. We recommend that the Product Manager, Prophet plans and performs
       an operational test assessment of Prophet Block I by updating the Test and
       Evaluation Master Plan and executing the test prior to fielding.

       Management Comments. The Army Program Executive Officer for
       Intelligence, Electronic Warfare and Sensors (PEO IEWS) agreed that an
       operational test assessment of Prophet Block I with MMI was required prior to
       fielding. PEO IEWS disagreed that an operational test assessment of Prophet
       Block I with MMI was not planned prior to fielding. PEO IEWS stated that
       based on testing to date, the Army Test and Evaluation Command recommended
       a conditional material release for fielding of Prophet Block I with MMI, and
       further testing was planned prior to its initial fielding. Specifically, PEO IEWS
       stated that an operational test assessment of Prophet Block I with MMI was
       scheduled for October 2002.


                                             6
Evaluation Response. Although PEO IEWS only partially concurred the
comments were responsive. We agree with the PEO IEWS statement that an
operational test assessment of Prophet Block I with MMI was required.
However, we disagree with the PEO IEWS comment that an operational test
assessment of Prophet Block I with MMI was planned. We concluded this
because an operational test assessment of Prophet Block I with MMI was not
documented in the Prophet Ground Block I Test and Evaluation Master Plan
Revision 5.0 or the Titan Prophet Production Block 1 First Article Performance
Test Plan. We were also told during the evaluation that for acceptance and first
article tests prior to fielding, the Army Test and Evaluation Command only
planned to participate as a reviewer and commenter. We request that PEO
IEWS provide the test report documenting the results of the Prophet Block I
with MMI operational testing.




                                    7
           B. Certification Level 2 for Prophet
              Systems
           The certification of the Prophet EMD system was incorrectly designated
           as Level 1 instead of Level 2 because the alternatives chosen for mission-
           reliance and integrity did not match the system characteristics. In
           addition the Prophet Block I production system certification level is not
           yet determined. As a result, independent security certification analysis,
           testing, and evaluation normally conducted for Level 2 systems are not
           planned. Prophet will be fielded without knowing the extent to which it
           will meet information assurance requirements.

Information Assurance for Prophet Systems
    Information Assurance. Information assurance is information operations that
    protect and defend information and information systems by ensuring their
    availability, integrity, authentication, confidentiality, and non-repudiation. It
    includes providing for the restoration of information systems by incorporating
    protection, detection, and reaction capabilities. An information system can be
    any computer related equipment or interconnected system or subsystems of
    equipment that is used in the acquisition, storage, manipulation, management,
    movement, control, display or reception of voice and or data and includes
    software, firmware, and hardware. The information systems contained in the
    Prophet systems are the MD-405A Receiver/Processor, the PSIU, the MMI, and
    the Tactical Navigation System. In order to ensure that the Prophet information
    systems function properly, security features that support information assurance
    must be implemented and tested.

    Prophet System Requirements for Availability, Integrity, Authentication,
    Confidentiality, and Non-Repudiation. Availability is the timely and reliable
    access to data and information services for authorized users. All Prophet
    information systems must be timely and reliable. If the MD-405A
    Receiver/Processor and the PSIU are untimely or unavailable the Prophet
    systems will not be able to meet their technical performance requirements.
    Also, if either the MMI, or the Tactical Navigation System is untimely or
    unavailable, the Prophet Block I performance and effectiveness will be
    degraded.

    Integrity is the condition existing when data is unchanged from its source and
    has not been accidentally or maliciously modified, altered, or destroyed.
    Without data integrity the Prophet systems would not be able to accurately
    report the direction, level, and frequency of signals being measured. Therefore,
    all Prophet information systems must ensure that the integrity of data used or
    provided is unchanged.

    Authentication is a security measure designed to establish the validity of a
    transmission, message, user, or system or a means of verifying an individual’s



                                        8
     authorization to receive specific categories of information. Prophet Block I with
     MMI must have authentication measures established to prevent typical users
     from inadvertently altering data.

     Confidentiality is an assurance that information is not disclosed to unauthorized
     persons, processes, or devices. Non-repudiation is the assurance that the sender
     of data is provided with proof of delivery and the recipient is provided with
     proof of origin, so neither can later deny having processed the data. Since the
     Prophet systems are stand-alone, confidentiality and non-repudiation are not
     applicable.

Requirements for System Certification Level
     DoD 5000.2-R, “Mandatory Procedures For Major Defense Acquisition
     Programs (MDAPS) and Major Automated Information Systems (MAIS)
     Acquisition Programs,” April 5, 2002. DoD 5000.2-R Chapter 3.4.1 states
     that development test and evaluation shall, in the case of IT systems, support the
     information systems security certification process, and DoD 5000.2-R Chapter 3
     Section 6.1.3 states that information assurance testing shall be conducted on
     information systems to ensure that planned and implemented security measures
     satisfy Operational Requirements Document and System Security Authorization
     Agreement requirements when the system is installed and operated in its
     intended environment.

     DoD 5200.40, “Department of Defense Information Technology Security
     Certification and Accreditation Process Instruction (DITSCAP),” December
     30, 1997. DITSCAP defines a process that standardizes the activities leading to
     system security accreditation, and applies to the acquisition, operation and
     sustainment of any DoD system that collects, stores, transmits, or processes
     unclassified or classified information. Both Prophet EMD and Prophet Block I
     are required to use DITSCAP since both contain information technology systems
     that collect store, transmit, and process data. The DITSCAP process consists of
     four phases: Phase 1, Definition; Phase 2, Verification; Phase 3, Validation;
     and Phase 4, Post Accreditation. Information collected during Phase 1 is used
     to determine the certification level. The certification level establishes the
     activities that are performed on a system for security certification and
     accreditation.

     DoD 8510.1-M, “Department of Defense Information Technology Security
     Certification and Accreditation Process (DITSCAP) Application Manual,”
     July 31, 2000. The Application Manual supports DITSCAP by presenting a
     detailed approach to the activities comprising the certification and accreditation
     process. Chapter 3, Phase 1 definition provides a task description on how to
     determine the appropriate certification level of a system. Using that process a
     certifier determines the degree of confidentiality, integrity, availability, and
     accountability required for a system by selecting weighted alternatives
     associated with each system characteristic. The weights selected are then totaled
     in order to determine the appropriate certification level of the system.



                                         9
     Certification Level 2 Security Test and Evaluation. Depending on the total
     score derived from Phase 1, the possible certification levels for a system are
     Level 1, which requires completion of the minimal security checklist that either
     a system user or an independent certifier may complete; Level 2, which requires
     the completion of the security checklist and an independent certification
     analysis; Level 3, which requires the completion of the security checklist and a
     more in-depth independent analysis; and Level 4, which requires the completion
     of the security checklist and the most extensive independent analysis. If a
     system is certified at Level 2, a system security test and evaluation is required
     during Phase 3 validation. The purpose of the security test and evaluation is to
     validate the proper integration and operation of all security features.

Assessment of Prophet Systems Security Certification Level
     Prophet Systems Characteristic Alternatives. During the system security
     definition phase, the program office performed a certification level assessment
     of Prophet EMD. Using the DITSCAP Application Manual the program office
     selected system characteristic alternatives for interface, processing, attribute,
     mission-reliance, availability, integrity, and information categories. The
     mission-reliance alternative chosen was “partial” and the integrity alternative
     chosen was “not applicable.” After the alternatives were selected their
     corresponding weights were added and compared to the application manual
     certification level table. The program office total of 12 designated Prophet
     EMD at certification Level 1. The program office did not assess Prophet
     Block I.

     During our evaluation we reviewed the characteristic alternatives selected and
     determined that the Prophet EMD and Prophet Block I alternative for mission-
     reliance is “total” instead of “partial” and the alternative for integrity is “exact”
     instead of “not applicable.”

     Mission-Reliance. Mission-reliance relates the degree to which the success of
     the mission relies on the operation, data, infrastructure, or system. The
     program office determined that Prophet mission-reliance is “partial” because it
     concluded that the mission “can be accomplished without Prophet Block I but
     with greater risk to personnel equipment and mission accomplishment.” Our
     assessment determined that Prophet mission-reliance is “total” because the
     mission of the system is totally dependent upon the specific aspects of system,
     operation, and data. In particular, Prophet is totally dependent on the operation
     and data of the MD-405A Receiver/Processor system, Prophet mounted is
     totally dependent on the operation and data of the PSIU system, and when MMI
     is being used to control the system and receiver as well as map and store signals
     Prophet Block I is totally dependent on the operation and data of MMI. With
     the alternative being “total” instead of “partial” the weight for the mission-
     reliance characteristic is seven instead of three.

     Integrity. Integrity relates the degree in which the integrity of operation, data,
     infrastructure, or system is needed from unauthorized modification or
     destruction of information. The program office determined that Prophet
     integrity is “not applicable” since there is “no Prophet operation that would risk

                                           10
the security of the data of Prophet and that no malfunction of Prophet would
result in sending data out of the system that from a security standpoint, should
be sent out.” We determined that Prophet integrity is “exact” because the
specific integrity aspects of system, operation, and data must be exact in order
for the system to accurately report the direction, level, and frequency of signals
being measured. In particular, the integrity of the operation and data of the
MD-405A Receiver/Processor must be exact or else Prophet would not be able
to perform its mission. Also the integrity of the system, operation, and data as
it applies to PSIU must be exact or else Prophet mounted would not be able to
perform its mission, and the integrity of the system, operation, and data as it
applies to MMI must be exact or else Prophet Block I performance will be
degraded. With the alternative being “exact” instead of “not applicable,” the
weight for the integrity characteristic is six instead of zero.
The following table depicts the evaluation that was done and the difference in
score with the adjusted values in mission-reliance and integrity.

    System Characteristic Comparison Table for Prophet Systems
      System            SSAA        Adjusted       SSAA      Adjusted
    Characteristic   Alternative    Alternative    Weight    Weight
   Interface Mode           Passive          Passive         2           2

  Processing Mode         Dedicated         Dedicated        1           1

   Attribute Mode            None             None           0           0

 Mission-Reliance*          Partial           Total          3           7

     Availability           ASAP             ASAP            4           4

      Integrity*        Not-Applicable       Exact           0           6

     Information           Sensitive        Sensitive        2           2
      Categories
                                             Total*         12          22
Denotes a difference*


Certification Level. The total score determines the certification level of the
system. A score of less then 16 designates a system at certification Level 1. A
score between 12 and 32 designates a system at certification Level 2. Because
the total is 22 both Prophet EMD and Prophet Block I should be at certification
Level 2.

Because both Prophet EMD and Prophet Block I certification levels should be at
Level 2, the Prophet Program Office is required to complete a minimal security
checklist, perform an independent certification analysis and during Phase 3


                                       11
    validation, implement a security test and evaluation. By implementing those
    procedures, system security features for availability, integrity, and
    authentication would be verified and Prophet would operate at an acceptable
    level of residual risk.

Summary
    Both Prophet EMD and Prophet Block I information systems require
    information assurance security features to ensure system availability, integrity,
    and authentication. The Prophet Program Office performed a system security
    assessment of Prophet EMD and designated it at certification Level 1. The
    program office has not performed an assessment of Prophet Block I.
    Certification Level 1 system security assessment only requires a minimal
    security checklist. During our assessment we determined that Prophet EMD and
    Prophet Block I should be at certification Level 2. Our result was based on
    Prophet EMD and Prophet Block I mission-reliance being “total” instead of
    “partial” and the degree of integrity being “exact” instead of “not applicable.”
    Because the Prophet systems certification is not Level 2, an independent security
    certification analysis, testing, and evaluation is not planned. Prophet will be
    fielded without knowing the extent to which the systems meet information
    assurance requirements.

Recommendations, Management Comments and Evaluation
 Response
    B. We recommend that the Product Manager, Prophet designate Prophet
    EMD and Prophet Block I at system security certification Level 2 and
    implement an independent security certification analysis that includes a
    security test and evaluation during Phase 3 validation as specified in
    Department of Defense Information Technology Security Certification and
    Accreditation Process (DITSCAP) Application Manual 8510.1-M, July 31,
    2000.

    Management Comments. The Army PEO IEWS partially concurred with the
    finding. PEO IEWS agreed that both Prophet EMD and Prophet Block I should
    be redesignated at certification Level 2. PEO IEWS also agreed that both
    Prophet EMD and Prophet Block I are required to have information assurance
    analysis and testing commensurate with Level 2 requirements. PEO IEWS
    disagreed that the Prophet Block I certification level had not been determined.

    Evaluation Response. Although Army PEIO IEWS only partially concurred,
    the comments were responsive. We agree that both Prophet EMD and Prophet
    Block I should be redesignated at certification Level 2. We also agree that the
    appropriate information analysis and testing should be performed commensurate
    with that level. We disagree with the PEO IEWS statement that Prophet Block I
    was designated at certification Level 2 during the evaluation because it was not
    documented in Phase 1 of the System Security Authorization Agreement for
    Prophet Block I. We request that PEO IEWS provide the updated System
    Security Authorization Agreement for Prophet Block I documenting the

                                        12
certification level of Prophet Block I as well as the security certification analysis
and tests performed.




                                     13
Appendix A. Scope and Methodology
    To accomplish the evaluation objective, we examined program management of
    Prophet Developmental Testing process of mission-critical software and its
    related documentation.

    We reviewed the organizational structure, software development process and
    software development testing of Prophet EMD. We obtained and reviewed the
    Prophet Test and Evaluation Master Plan, Developmental Test Plan, and Test
    Reports. We selected three of the six subsystems in Prophet that contain
    mission-critical software for our evaluation. We visited the Prophet Program
    Office, the developmental and operational test sites, and the contractor software
    developmental test facilities to verify and validate test process and test results.
    Results of this evaluation provided insight into the completeness and adequacy
    of the developmental software testing done for Prophet EMD and
    Prophet Block I.

    We performed this evaluation from October 2001 to May 2002 according to
    standards implemented by the Inspector General of the Department of Defense.

    We visited or contacted individuals and organizations within DoD, Titan System
    Corporation, Santa Clara, California, and Tera Research Incorporated,
    Sunnyvale, California.

    Use of Computer-Processed data. We relied on computer-processed data from
    the Command, Control, Communications, Computers and Intelligence Test
    Division Final Report for the Production Verification Test of the Prophet
    Block I, March 2000, of the Army Electronic Proving Ground to determine the
    completeness and adequacy of the testing. We reviewed the computer hardware
    and software configurations used. We observed the operations of the test
    computer, which generated the test signals, as well as examined the test signal
    data files. Although, we did not perform a formal reliability assessment of the
    computer-processed data, nothing came to our attention as a result of the
    procedures that caused us to doubt the reliability of the computer-processed
    data.

    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This evaluation report
    provides coverage of the Defense Systems Modernization high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

                                         14
Scope of Review of Management Controls. Management control was not an
announced objective of this evaluation. However, we reviewed the management
control program related to the overall evaluation objectives and determined that
the pertinent management controls concerning Developmental and Operational
Testing of Mission-Critical Software for Prophet Block I system were
inadequate (See the finding A).

Adequacy of Management Control Program. We identified a material
management control weakness at Prophet Program Office as defined by DoD
Instruction 5010.40. The Product Manager, Prophet has not planned for
Prophet Block I with MMI to have an operational test assessment or a follow-on
operational test performed prior to fielding. Product Manager, Prophet should
plan and perform an operational test assessment test because with MMI, the
system performance and effectiveness are changed. If management implements
all recommendations, the management control weakness will be corrected. A
copy of the report will be provided to the senior official responsible for
management controls within Program Management Office for Signal Warfare.

Adequacy of Management’s Self-Evaluation. Prophet Program Office did not
identify the need to perform the operational assessment test as an assessable unit
and, therefore, did not identify or report the material management control
weaknesses identified by the audit.

Management Comments on Management Control. The Army PEO IEWS
non-concurred with the IG DoD opinion that a management control weakness
existed because an operational test assessment was not planned for Prophet
Block I with MMI. PEO IEWS stated that an operational test assessment of
Prophet Block I with MMI has always been planned. PEO IEWS also stated
that management controls are in place at both the Program Management and
Program Executive Office levels, which include program reviews, planning, and
an acquisition memorandum that requires follow-on-testing of any differences
from the Prophet EMD to production configuration.

Evaluation Response. DoD 5010.40 “Management Control Program
Procedures,” August 28, 1996 states, weaknesses in management control should
be reported if they are deemed to be material. A material weakness in
management control must satisfy two conditions: management controls are not
in place, or are not used or are inadequate; and the weakness identified requires
the attention of the next higher level of management. During the evaluation a
material weakness in management control related to finding A was identified
because it satisfied the two conditions. First of all, management controls in
place did not adequately plan for the operational test assessment. This was
determined because the Prophet Ground Block I Test and Evaluation Master
Plan Revision 5.0 and the Titan Prophet Production Block 1 First Article
Performance Test Plan did not document the planning of an operational test
assessment and discussions with Army Test and Evaluation Command
representatives revealed that for the acceptance and first article tests prior to
fielding of Prophet Block I, the Army Test and Evaluation Command only
planned to participate as a reviewer and commenter. Secondly, the attention of


                                    15
    the next higher level of management, PEO IEWS, was required. This was
    determined because of the relative impact of the material weakness on the
    testing, deployment, and use of Prophet Block I with MMI.


Prior Coverage
    No prior coverage has been conducted on the subject for the last 5 years.




                                       16
Appendix B. Definitions of Technical Terms
   AN/PRD-13(V)2 - Special Operations Command radio frequency direction
   finding system consisting of the MD-405A Triple Receiver/Processor, direction
   finding and intercept antennas, cables and power accessories.

   Assembly - A programming language that is once removed from a computer’s
   machine language.

   C++ - A high-level programming language, developed by Bjarne Stroustrup at
   Bell Labs. C++ adds object-oriented features to its predecessor, C.

   Line-Of-Bearing – A line extending in the direction of a bearing.

   Line-Of-Sight - A straight line between an observer and a target.

   MD-405A - An integrated, programmable, intercept/direction finding processor
   that supports highly automated signal intercept and direction finding functions
   over the frequency range from 100 kHz to 2000 MHz.

   Megahertz - A unit of frequency equal to one million cycles per second.

   Prophet Engineering and Manufacturing Development (EMD) - Prophet
   System without the MMI that was used for developmental and operational
   testing.

   Prophet Block I - Prophet Full Rate Production System that has identical
   electronics to Prophet EMD with the addition of the MMI.

   Root mean square - The square root of the mean value of the sum of the
   squares.

   System Level Testing - Tests used to assess if the system meets the overall
   performance objectives of the software requirements and system specifications.

   Unit Level Testing - The lowest level developer test of software. The purpose
   of unit testing is to validate requirements expressed in the detailed design
   descriptions and software requirements specifications. In addition, unit testing
   is performed to ensure that all source statements in a unit have been executed,
   each conditional branch has been taken, and that all boundary values (for
   example, minimum-maximum values) and edit criteria are tested.




                                      17
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Command, Control, Communications and
   Intelligence)
Director, Operational Test and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Acquisitions, Logistics, and Technology)
  Program Executive Officer for Intelligence, Electronic Warfare and Sensors
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Non-Defense Federal Organization
Office of Management and Budget




                                          18
Congressional Committees and Subcommittees, Chairman and
 Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         19
Army Program Executive+ Office for Intelligence,
Electronic Warfare and Sensors Comments




                                                   Note:
                                                   Comments
                                                   were received
                                                   on October 1,
                                                   2002




                       21
22
23
24
Team Members
The Technical Assessment Division Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this
report. Personnel of the Office of the Inspector General of the Department of
Defense who contributed to the report are listed below.


David A. Brinkman
Kenneth H. Stavenjord
Peter C. Johnson
Anh H. Tran
Cindy L. Gladden
Ann A. Ferrante
